Q1

-589 8 ORIGINAL

No.

Supreme Court, U.S.
FILED

AUG 2 6 2021
IN THE

OFFICE OF THfc CLEGK_ _

SUPREME COURT OF THE UNITED STATES

^>a,n clrci
— PETITIONER
(YoClr Name)

vs.
f^fa.o rm»

Jy I edft claSe.tv

011
— RESPONDENT(S)

ON PETITION FOR A
\n 4-Uc. nnct+Ver o£
0$
Norfhe.ro Dis4r\c^

iflOn/f^

' TihterV£-^
^

Indiccncx,

For'f W<*ypC

r ase Mo.

/■‘/9 - CV- gO^g‘7^

\A/Ct--S LQ

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
£*+r cloOUi o ar vj
\aj ^ vT
PETITION FOR

.f^oioc^roi

B)\ CXC~k\

(Your Name)

jVoff S. Mo^ple S~K

ApV. ICf7L

(Address)
/i/|nr iinr>;

/W

V49S3>

(City, State, Zip Code)

(jUs) be?7 ~ /o4.g
(Phone Number)

I frO

QUESTIONS
1. How is it possible for a black person to have constitutional rights to be treated EQUAL to a
white person’s rights, privileges, benefits and advantages if we consider the following fact.
Blacks are the ONLY race of people in America setup systematically by design for centuries
to this very day to live as the permanent underclass stripped of a place of refuge to call their own
to rule, govern and be free. They live in a society and government that generally knows that
there is a genuine devastation to black lives SOLELY historically until this day and of numerical
disproportionate social struggles that coerces the national racial divide. However the district
federal court totally refuses to use all within its power to the very limits of the law to grant a
black person (plaintiff) justice. In doing so not only is plaintiff denied justice, but ALL blacks of
America are being denied justices.
la. If ONLY blacks are devastated in this UNIQUE way above, how can they EVER
overcome a society that utterly denies the above situation and grants so-called justice to
an entire group of people called “minority” without ever singling out help for the black
only oppression condition?
lb. How can blacks prevent utter devastation when the roots of oppression are deeply
woven into the fabric core of our nation? If is so vast that white cof>s consistently
MURDER unarmed INNOCENT black people and can go totally free often
PROMOTED, while in fact NEVER nationally known has a black cop MURDERED an
innocent unarmed white person and gone TOTALLY FREE, skip the idea of a
promotion, yet there’s a debate among the masses that blacks are now equal to whites.
Is it possible that the federal court thinks the same as this minority members of society
above who believe blacks are now equal as why no special consideration was allowed for
plaintiff regarding the racial divide resulting in all motions of late denied to plaintiff and
all motions of defendants granted?
lc. How can plaintiff receive a fair litigation DENIED discovery and PUNISHED
for her delay in further cooperation with defendants to get their discovery (the
deposition) when she is not allowed ANY GENUINE DISCOVERY REGARDING
DISCRIMINATION the primary subject of her case? Note: the great detail that
plaintiff cooperated in answering all production, interrogatories, and admissions
while plaintiff got ZERO on discovery regarding how blacks were treated in
comparison to whites. How can this NOTbe seen SUBSTANCIAL DENIAL OF
DISCOVERY when the entire case is about discrimination and no discovery is
allowed on that subject? Note: this case is the equivalent to David and Goliath, the
court saw that plaintiff cooperated fully and that the defense did not, but she
continued to hound plaintiff even at the last meeting telling plaintiff to answer every
question even if it is fishing she was not encouraged to a right to object. But the

*!

defendants were objecting to everything. This was extreme attempt to try to help the
defendants extract an unfair advantage fishing expedition.
2. How can a pro se litigant be heard in a court of law as REQUIRED by the constitution when
it is unconstitutionally REQUIRED by the court and defendant’s attorney that the litigant uses
words/terminology and presents facts as if a lawyer even though in lay terms what is being said
and presented is reasonably understood by the average perons?
3. In 2021, why should a Federal Court be biased against a near elderly disabled black person
who is MALICIOUSLY discriminated against and grant favor to the lawyer and corporation with
no way to be heard for the pro se litigant?

4. Will the Supreme Court do all within its power by law to PUSH TOWARDS THE
REALITY THAT black people are to be treated equal to white people and to HONOR THE
CONSTITUTION OF THE UNITED STATES to do all within its power to protect black rights
to be treated equal and free from harm due to their skin color?
If (no) the constitution must either remove all references to all people are to be treated equal or
dismantle the constitution.
If (yes) this court must grant the writ and seek diligently to understand the cause before the
supreme court... to ultimately bring about one solution for the national crisis regarding the race
divide.

QUESTION(S) PRESENTED

l*

14o\*> a tf pogS i* L le 4-or
b/cLC-fc
KaveV11-u"l~> *vvc^l f*43^4s f-o ^
fo

EQokl

t

fY'w

CO.C

‘

&of|^

?

+ke

t>lac,ks

o-re-

sef<xp

SysTeMat'CCi.11

* gg.n-f^Y->..es
\ y
jfor

y

-ho 4k''*s i/^y
/,

—p ff/r rvv^r^-^BiYvJ-

1;

ve.

o.S

o£
cjl ^e'.r

•fo
/

CMct^.

re^e
© laj n

4-o
"3
I
fu'e. govern c^n, A Le. -free. .
l
fU AuV,^t'a.c. <x\ Aw i A tr,SlS/
ajl \s\‘fThiO
I
-u
Ctf>u-r+
-M-ally r-ei^e-S 4. cts&
*,+- o£Uw
4-o 4-We, 1—,/Vxf
p
c
>\
aj
e.r~
;+5
/jVa*V. £■£•) J'd' te.
a L>W<^k person
•rao

4p c<sA l -p^e-' f

X.

own

>+

9

j4 c»\Aw)
jy^i

cx.

Cour

Vjiv-iCo^S 4

_|_0

'■ 'V "l - .,

4

o-f*

> fu.fi ovxct

las-e_

|.’-|4ga*cf

co ie

CAv\

-,

3

c/ cj.

s-w-ipped

oVa6S

.54?

cud^Cinbo^^S

&£- Y

ro.c e.

QN(-S
nl vo£04 S

f;lS/

-/-tt€.«u4" e-d

persons

4-U fcJ ~tU:

i oler
C-ov\ S

t>y <AeS»g*\

VajIw f e_

o.

person

LoorcJ^

‘4 <x i CXW yer

eb.

«—4

where
rebuffed
i

Zieccirc/

.-

l,aw

ll^

te.

*»

if • is. ,
by 4ke_ cow^"
/p '•: it

55

^vui pcesen'T.S -r^cT§
or a.1 l ernes mafioiruS'

<

QUESTION(S) PRESENTED

3-

"T-O 2.1

In

be

Cow-^V
ne«-r

W /i y
\o \

o_ ^""^de.re^ [

ou^r\srb

Olv\

s c_f > r<~>>

el^4V ^

(AY*c|

£ Lieu l cl

^Ca/

vor

4^J^i c.

l/i

c^\sj

^ ex~

c.ti /■ /V\

^vv

A

Cor p © rex
Cc>iA.r4~ ^{r>

u»p
(A

4o

14-s

?^S

4U re^+y +Ui

c©^st '

Oes') +0^

co«^+

is
\VvS>

CaOU

u

ulS

WA v

VJnA-

'rfx> U^A^lTciC,

P“P
1 +o

\o \p^ 'fr<£^re^

aore^
boV;W p80?^

b

£>

o yvo\T i A

5>

^r -five 06A-

r^usi-

3rn'n~~

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[vi All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
fAa.ovvx'. \-r» eJn. r I civS-e-Vs

W e>\\ \
- I’KArvVer'S

R* \XK\

s8-

S&

-J-i- ■

SB

'

.

■.

c

OYW

Ko-f isialudeJI cd

Z1DQ3- Jip6»

o^nPvcx

G<"<xrf{* -

A-p pe, llccfe,
C-OSeS

(itrrua't"

Superi or

BLAC_l^

Gaud

Us C^lr, c,i~

GO"

/-S5-

/3//~ & U5*7

27tse,■*. - no's- sc- 00001 ^
~"

L+^s h',-h — peparfn^nf <,4 c/d (J

0

ft**

Su&£erin3
*Z1 Aoz-

C«w4 2
£f"lc>rfkern)

B
L-

ZTE>02~- /oo

2.

Covxv-4
^AtvYcl* «.■* ski P
^tvpe.Ciovr

Coo-^i

——
2*7 AQ5T - /70
«Su.ppON(dl AA -+es4-l» /YVO

-___ _

A\o

/tvej

RELATED CASES

T)5^ Cose AJo

Superior

-Me

/.' 2/ -

e\/- ~2,£>s~

5^rv/cej

2.7t>0S - 110 V- Q}~ oooo&o
^eSuieA

HeoUk &auocL*sKf

gioo^D m

C

TABLE OF CONTENTS
OPINIONS BELOW.....AMP....

.... 1

-3

JURISDICTION................................................................. .........................................3
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

fcl'TTE*

STATEMENT OF THE CASE................

7-^

REASONS FOR GRANTING THE WRIT J\S.P... H®:!/... SoUj3

I7s/<f

^
CONCLUSION....................... \.......h.....................................................
AXw P«,e H'
>«eludes U-'jwnf^n P0*4,,0,llA“
opw?.o».s BeW, r«rW:c+-fofl
'INDEX TO APPENDICES

/
APPENDIX A

Op/opH

^

O v~der~
APPENDIX B

e>^r /Vlol'iioV\
APPENDIX Ci
■■r

APPENDIX D
APPENDIX E
APPENDIX F

,
Cou<" T

j

■Piled

£;|ecl '1-^P ^

rfoc Pre\»v»i •

-f>‘ 1*4

ORDFR ~T6
Oi 5 c r* rvv • »v«cV'* o H

\H-1.7

1
iw»
CmA '

1

1

No.

IN THE
SUPREME COURT OF THE UNITED STATE
PETITIONER

SANDRA BLACK
NAOMI FRIEDRICHSEN, ET AL

- RESPONDANTS

lA
TO INTERVENE IN THE MATTER OF THE
PETITION FOR
US NORTHERN DISTRICT OF INDIANA FORT WAYNE DIVISION

* be,*

an

issu^ to review this matter of the United
Petitioner respectfully prays that
_ _
States Northern District Court in Fort Wayne, Indiana^
OPINIONS BELOW
The opinions below are published in pacermonitor.com for Indiana Northern District court and
................... for state court opinions are found at mycase.in.gov.

INDIANA NORTHERN DISTRICT COURT
MATTERS TO CONSIDER:
1. Motion for Partial Summary Judgment, April 21, 2020, DENIED when though defendants
deny everything, they deny with zero evidence other than genuine contradictory testimony, while
plaintiff submits concrete merit-worthy evidence that her version is truth, no genuine
contradictory testimony and the burden of proof lies on the litigants claiming an affirmative
defense. Thus no GENUINE dispute exists as there is no evidence to support their claim and
great evidence against their claim, the burden cannot possibly be overcome, therefore plaintiff
should have been victorious. A PARTIAL judgment against the defendant’s claim of
affirmative defense should have been granted. The court is believed to be allowed to partially
FIND an opinion that the eviction should not have taken place while not FINDING that
discrimination had been successfully proven. The court by practice is biased against allowing a
pro se litigant judicially qualified advantage (ammunition) over corporations and possibly over

2

white litigants. The original motion was modified by amending the motion which could have
confused the court that the PARTIAL judgment was no longer requested, but again though
plaintiff is not a lawyers it is the court’s duty to justly render justice. Surely, the court should be
aware that it did not have to find FULL summary judgment was required of both discrimination
and no affirmative defense? The court should have granted a partial summary judgment find that
the defendants did not submit evidence to overcome in an affirmative defense, that there was no
GENUINE dispute because of this fact or at the very least held a hearing to give the defendants
an opportunity to submit their evidence (no evidence was submitted in their affirmative defense
claim) for their actions of bringing an eviction lawsuit. They shouldn’t have been entitled to a
new trial altogether.
The court failed the plaintiff, but it was early and plaintiff didn’t want to prejudice the court to
request reconsideration. Furthermore, it is now obvious based on past practice of this court that
any chance at harm to the defendants will be DENIED, because a blind eye is turned against
evidence presented to this court by plaintiff. Thus plaintiff was RIGHT not to request
reconsideration and a hearing of the defendant’s evidence.
Worse, the court would later presumed by accidental bias GRANT the defendants erroneous
conclusions against plaintiff in favor of the defendants such as [plaintiff is guilty of having her
grandchildren illegally in the home not on the lease (ERRONEOUS)], [the defendants were
never fully heard in a court of law as they agreed to dismiss (NEVER HAPPENED)], and
[defendants made an err to say several unauthorized occupants and genuinely meant one person
thus there was no perjury (THIS IS UTTER BIAS AGAINST PLAINTIFF)].
2. Opinion and Order filed 1-19-21 see appendix A. that Plaintiff was not allowed discovery.
The court was made to understand that the defendants had mislead the court to believe that they
had cooperated with the discovery process WHEN IN FACT THEY DID NOT. It is filed under
“Request For Substantiation of the Order ECF 80” What the defense did was to copy as much
meaningless documentation such as the booklet application to move in, other numerous
documents and violations ALL within the plaintiffs possession prior to discovery while abusing
the boilerplate objections to REFUSE ANY AND ALL DISCOVERY that would prove
misconduct or discrimination. Thus genuine discovery had not been allowed for plaintiff to this
VERY DAY and the court has now KNOWINGLY backed this process. See also the Request to
Substantiate the Order filed as a response to this order, denied. A motion to Repair the
erroneous order an eliminate bias was also denied.
3. Last order issued on or about July 30, 2021 to grant defendants all of their motions while
denying plaintiff everything. Plaintiff was issued a biased order from the court which read,
ORDER OF PLAINTIFF IS TO APPEAR IN PERSON (meaning to drive from her home nearly
an hour’s drive to a different city) while defendants may appear in person or by phone with
ZERO explanation of the difference (bias) in treatment. See Appendix C. There’s absolutely no
reason not to REQUIRE BOTH litigants equally to appear in person especially after being

3

accused of being bias behavior except to drive it home once and for all... plaintiff will be treated
differently and accept it. Granting defendants everything they requested and denying plaintiff
everything she requested shows the bias. The court was bias to refuse the request to help stop
perjury in her court by RECOMMENDING to the prosecutor that BOTH LITIGANTS BE
EQUALLY investigated for perjury due to plaintiffs claim of GROSS illegal testimony (lies)
while under oath that defendants witnessed Jacee in her home PRIOR to April 19, 2017, while
she lived with her mother (Julie) and grandmother (Barbara Daniels) and attended school in an
entirely different town, while plaintiffs son worked (on the clock in Bloomington). It was utterly
impossible for the then 15 year old Jacee Barber to have resided in the home of Sandra Black.
Jacee is now divorced from plaintiffs son and 19 years old and can tell the truth that the
landlords couldn’t have possibly seen her prior to their accusations because she lived at home
with her mother. Jacee and her mother were being investigated by DCS as well in an entirely
different city. Jacee attended school in her home town. The lies are UTTERLY MALICIOUS
easily proven and the court refuses to use its power to stop the lies.
4. SEE DEFENSE ATTORNEY HABITUAL MISLEADING MOTIONS: The defense
attorney misleads the court and lied that Sandra Black had much court experience unknown to
the court to more prejudice the court against plaintiff. She meticulously presented the court only
plaintiffs past cases from the midst of many other Sandra Blacks. She went through each one to
make sure the case belong to the RIGHT Sandra Black. However it never occurred to her to
check for at least one case of a genuine contested court battle that the court did not know of to at
least appear to act on good faith in presenting such a claim. NOT ONE CASE of many numbers
presented to the court was a case that had been contested to fight a case as in this lawsuit. Most
all cases submitted by Brittney were small claims, simple uncontested divorce, and uncontested
guardianships, several cases were never heard. And nothing is being done to stop these Bad faith
actions or incompetence. It is believed that the defendant’s attorney is acting in bad faith to
encourage her clients to commit perjury, showing them that there is absolutely no consequence
to lying under oath or misleading the court. They were utterly frightened of ramifications in
lower court testimony (causing conflicting testimony and little to no testimony that plaintiff had
unauthorized occupants by Erika Holliday, Friedrichsen’s assistant) and now they lie at ease,
NOW THEY LIE BOLDLY. The court, the counsel both assure the defendants that there is no
such crime as perjury that is PROSECUTABLE by law. There was also a claim by Brittney that
plaintiff wasted time setting up a deposition for Naomi Friedrichsen and not Naomi, but evidence
was submitted to the court showing it was false, again nothing is remotely said to correct this bad
faith and possibly perjury as Brittney had to threaten to turn her client into the court to get her to
appear for the deposition, no way she forgot that.

JURISDICTION and STATUTES AND RULES

4

DISCUSSION ON JURISDICTION AND STATUTES AND RULES
Plaintiff interprets Jurisdiction/statutes and rules to move the Supreme Court normally requires
that the judicial process is fully adjudicated to a final decision that cannot possibly be overcome
at any higher court of appeals. The reasoning for moving the Supreme Court before completing
a fully adjudicated litigation is as follows:
1. There is great harm and damage that will result in the current matter without intervention:
i. An individual, the plaintiff is being stripped of her constitutional right to be heard
without bias and to have a judge work DILIGENTLY to the fullest extent of law to do
ALL within its powers to serve the plaintiff’s requests.;,;

r

hi
ii. The judge works diligently within the boundaries of the law to serve most all of the .
defendants requests^ btfV 5e-t\/€S
hiotdS? &£ pfcw
iii. An entire ethical group, namely African Americans is being stripped of a chance
to be heard and relieved of suffering without ever knowing the concept is sought
after.
iv. Plaintiff has been stripped of the right to any discovery of discrimination (the
treatment of white people in comparison to the treatment of black people) or discovery
misconduct in treatment towards plaintiff from the defense also is not allowed. Those
requests are the significant basis of the case and are REFUSED by boilerplate objections
abuse and the PRETENSE to not understand plaintiffs request to the OUT RIGHT
INSULT that plaintiffs requests are unintelligible with the court echoing the same insult
against pro se litigant trying diligently to represent herself without a lawyer’s background
and approaching elderly to not be perfect in submissions. WHAT WOULD HAPPEN
TO AN UNEDUCATED PRO SE LITIGANT who has a constitutional RIGHT to be
heard in a court of law? Should he/she be told at every turn that they are unintelligent
primarily because they are not a lawyer?
v. Plaintiffs win at state court against defendants is never discussed in any opinion, but
plaintiffs (defendant in that court) counterclaim dismissal at lower state is mentioned in
err for the defendants as never being fully heard as proof of a right for defendants to
present new evidence and be heard a second time fresh and anew. Furthermore, court
presented other errors that harm plaintiffs creditability and favors the defendants. The
court was made aware of its mistake in both the Motion to Substantiate the Order and the
MOTION TO REMOVE COURT ERRONEOUS CONCLUSIONS AND BIAS
AGAINST PLAINTIFF

i

5

vi. The defendants and their lawyer habitually act in bad faith going unchecked by the
court with the defendants committing provable perjury and assisted by the court refusing
to even warn the defendants not to perjure themselves prior to the Naomi Friedrichsen
deposition as requested by plaintiff. The court acts as shield for perjury and bad-faith
practices.

2. This case is a case that must be considered a national concern and as such must be give

unprecedented consideration. The Federal Court by its actions is totally blind to the
scope requested or totally ignoring the unprecedented possible national remedy to
the racial divide.

3. Plaintiff is near elderly, disabled, not in the best of health, and extremely damaged

beyond cruel and unusual societal harm, living an UPRIGHT life, doing all within her
power and knowledge as a human being to follow all laws and rules only to be
“karenized” over and over and over for decades of traumatic suffering.

4. The case has been devalued for the plaintiff by the court’s error, orders and opinions that

bias favor towards the defendants and near contempt against the needs and requests of the
plaintiff.

5. The plaintiffs requests for legal support, an attorney was needed and see page 4,

number 3 in the Motion for Partial Summary Judgment where plaintiff seeks the court’s
assistance for an attorney which was not even considered in the order and opinion as
plaintiff remembers. When asked the second time the court denied the request because of
wording where plaintiff said “numerous” attorneys were called to no avail instead of 3
attorneys with phone numbers. However, the court and defense attorney adamantly
complain that the plaintiff is good without any help. The court said it by “numerous
filings by plaintiff’ shows plaintiff doesn’t need any help. Defendants submitted bogus
misleading court numbers of ALL uncontested bill collections, divorce, guardianships to
try to help prejudice the judge even more against plaintiff to assure no special help or
consideration for a pro se litigant is allowed.

6. Failure to assist with an attorney or legal assistance coupled with bad faith practices
of defendant’s attorney backed by court support assures it a fact that plaintiff was
and will be taken advantage of. In the last deposition, plaintiff was FORCED to sit

6

nearly four hours even though defense attorney was told in advance that due to plaintiffs
disability she cannot be in a deposition more than two or three hours at a time. Defense
FORCED plaintiff into an emotional breakdown pushing plaintiff to attend the deposition
more than three hours and in the last hearing the court refused any care SOWHATEVER
of the prior announcement of not going over two or three hours max. She stated that if
plaintiff did not meet the demands of the defense attorney to stay as long as she required
even though plaintiff was going over the time limit that it looked as if plaintiff was faking
because counsel cooperated to plaintiffs needs to limit 2 to 3 hours in the first
deposition. The court said to do it the second time implies that the plaintiff is faking and
again risk having her case dismissed or compromised.
While the court has no requirement to grant assistance with an attorney in a civil matter,
the court acted in bad faith by ignoring the first request as contained in the motion for
partial summary judgment (perhaps lawyerly it should have been contained in a separate
motion so no care to explain or give an opinion) The second request, the court refused not
because it couldn’t assist, but again terminology, not being a lawyer was given for an
answer, needing 3 attorneys with numbers instead of “numerous” attorneys without
numbers. This action is equivalent to simply REFUSING to diligently work for
plaintiffs requests.

7. All is lost, no fair and just hearing considering the TOTAL requests and needs of
plaintiff is possible if the plaintiff is not fully heard, understood, and fairly equally
adjudicated (having motions and request answered NOT as a second class citizen) see
the docket number 141 document filed July 23, 2021 and included in this writ where
Black is “ORDERED to appear in person Defendant may appear by counsel in person or
telephonically” this happens after the court is requested to fix the bias without any
explanation, though automatically the defendants’ attorney should have also been
ORDERED to appear in person instead of given a convenience that the court evidently
couldn’t allow the plaintiff.
Due to all of the aforementioned suffering, discrimination, judicial duty to plaintiff
forsaken/absent, and losses brought about by the federal court’s failure to fairly and judicially
deliver judgment the Supreme Court must intervene as the only court possibly qualified to
remedy this situation. Since no other court can intervene to plaintiffs knowledge to service all
the needs and requirements sought after by the plaintiff for remedy in this matter with full and
complete consideration of ALL REQUESTS and to be made whole as an individual and as a race
of people considered and setup to the FULLEST EXTENT OF THE LAW REQUESTED.

7

The last harmful action of the court took place in the hearing dated July 29th and the order as
consequent of that hearing filed on July 30th. Plaintiff files this writ as these last dates of offense
are expected to continue and only get worse.

STATEMENT
QUESTION ONE
1. On or about May 23, 2019 and June 10, 2019 plaintiff filed a lawsuit and sought special
consideration for her case as a possible resolution for black people only, the first in history to
help satisfy the national racial divide crisis, both were dismissed and somehow eventually
allowed. The plaintiff has no understanding why her claims were being dismissed, but it seemed
that she failed to mention “housing discrimination.” and violation of the civil rights laws.
However, it was always mentioned that there was a wrongful eviction, discrimination, and that
the defendants were denied possession, but because the words were not in legal terms and
lawyerly the case was automatic dismissed more than once. This is a huge pro se litigant denial
of access to the court at worse and undue burden at best, thus a violation to the constitution.
This court nearly denied the world a chance to a historical moment to change history and
an attempt to right a huge-colossal wrong to black people. Plaintiff called it EMBEDDED
LAW, which would upon qualification ask a jury to extremely punish defendants who
intentionally and maliciously discriminated against blacks causing harm. Blacks are targets to
societies’ unspoken privileged minded persons who feel it their right to falsely report blacks and
harm/damage them as a NORM to be EXPECTED of society. It is so normalized that there is a
name for these people “KAREN’S and KEVINS”. This case is in need of intervention solely due
to” Karens” running amok in our society from the judge, to the defense attorney, to the
defendants all of whom operate without doubt in the very least in bad faith to the worst (looking
at the defendants) out right criminal. In a court of law mocking justice as Karens do believing
they have a SPECIAL PRIVILEGE as a RIGHT against blacks makes justice utterly impossible
for a black person. Today’s society runs amok with Karens and Kevins who feel it their entitled
privilege and right to falsely and wrongly destroy blacks and worse to use society, government,
and the judicial system to back them up. As such this plaintiff seeks a jury to agree that her case
is the special unprecedented cruel and unusual suffering that will show just cause to treat blacks
in need of special protection from discrimination litigants who intentionally and maliciously
harm black people, “Karens”. As such this case would advance the nation in a great move
forward towards lessening the systemic racial divide existing centuries. HOWEVER, THE
CASE MUST SURVIVE LEGALITIES AND BAD FAITH PRACTICES, BE HEARD, BE
FAIRLY ADJUDICATED, none of which is being allowed due to court bias against a pro se
litigant. These extraordinary conditions of national concern ignored by district court can only be
remedy by intervention into the case as there is ongoing further damage by a biased court
continuously seeking avenues to fault plaintiff while totally turning a blind eye to defendant’s

8

bad faith practices, dishonest testimony, and the level of maliciousness of their actions. What’s
worse is that the court refuses plaintiff discovery. Plaintiff has not received discovery asked for
back in October nearly a year ago and not one bad remark has ever been made against defendants
for all the time wasted against the plaintiff. The judge sees only the defendants time has been
wasted who have ALL initial discovery overly detailed with answers and about six hours of
deposition.
It is now clearly evident that this particular judge cannot and does not have any empathy so
whatever for the condition (extreme suffering due to dark skin) and situation (embedded
law) plaintiff pleads before her. Plaintiff cannot ask the judges to recuse due to her past
experience that the next judge is likely to rubber stamp the bias for white, corporation, and a
lawyer against black and pro se. This act happened to the plaintiff in state court case number
27D02-1008-GU-185 officiated by Judge Dana Kenworthy who was forced to recuse. Judge
Warren Haas 27D03-1008-GU-185 took over the case without one consideration of S. Black’s
evidence and requests stating that the case was “easy” just keep everything just as Dana
Kenworthy had ordered, leaving S Black as a monster and unfit to be guardian over her mother.
He even told Sandra that he couldn’t care if she never saw her mother again. Then six years
later, granted guardianship to Sandra Black over her three grandchildren and stated how great of
a person she had been to devote herself to her grandchildren. How is it possible to be an unfit
monster in guardianship of mom and a wonderful person in another, by the same judge? Haas,
rubber stamped Dana Kenworthy’s wrongful order leaving Sandra Black’s mother to live out a
horrible many years of abuse and possibly ending in her murder. Plaintiff seeks a fair and open
minded consideration of the fact that this case should be used as a remedy, the first time EVER
any help has gone to offset the race divide financially. The federal court wants strict adherence
to the discrimination case as a simple regular case and NOT as an answer to a national crisis.
NOT EVEN CONSIDERED AT ALL. The court’s actions are that this case is not special and
moreover one to be lessened and devalued its true worth. Thus the Supreme court is needed to
review how extremely biased the court is in refusing to see this case as a national opportunity not
only for black people, but for the nation’s international stained image of systematically keeping
black people perpetually oppressed in this country and refusing any change.
Considering EMBEDDED LAW, not every black person would qualify to offset a black person’s
life of suffering. Take for example a young black person for the very first time is maliciously
and intentionally discriminated against, but has no prior losses reported. This black person
would not qualify as he has only suffered a normal discrimination lawsuit. A black individual
with lifelong, “significant” victimization and harm due to having dark skin would qualify to use
“EMBEDDED LAW”. This term is used to describe how and why our society targets and
destroys black people as a privilege and a way of life. This would FORCE corporations to assure
that ALL blacks are not discriminated against because they can never know which black person
will qualify for court awarded damages of “extreme punishment due to “significant” harm to a
black person.” Plaintiffs life extraordinarily was destroyed due solely for being bom with dark

9
skin. The damages are extreme, BEYOND CRUEL AND UNSUAL and should not be the norm
required to qualify for EMBEDDED LAW. Plaintiffs most horrific damages are
1. She first lost a career as a degreed chemical engineer at the age of 37 solely for being
a black person with a body that will die under extreme stress due to uncontrollable high
blood pressure impossible to be treated and renal failure. This ended her life dream
chance at a piece of the American pie dooming her to the most impoverished of the land
solely due to dark skin. Had plaintiff not been tormented because of her race for nearly a
decade she wouldn’t have been stressed to the point of near death and could have held a
thriving adventurous career. Being destitute and educated (RARE) also made her a target
- of hatred sticking out intelligent and knowledgeable, but ruled over by karens jealous of
her reasoning and power to dominate her condition to live the best lifestyle legally her
family could afford. What is seen in numerous videos is real and a nightmare to black
people. Oppression 23 years from chemical engineer to utter destitution.
2. She lost her mother and was forced to watch her abused nearly ten years. Her mother
went through a rape kit and was possibly murdered without doubt physically battered at
her death. Had Sandra been bom a white person she wouldn’t have been disabled or
forced to watch her mother abused for nearly a decade.
3. Then KAREN type landlords maliciously fabricated two serious violations against
plaintiff (a pet mess) and (unauthorized occupants) and falsified two “friendly reminder”
notices that never existed to bring to state court in an attempt to intentionally and
maliciously evict plaintiff. From the onset of tenancy, plaintiff was treated unwelcomed
and now believe refused maintenance needs. She was yelled at and belittled with never a
response back until after plaintiff was at the very end of her rope realizing that there was
no end to the amount of treachery the defendants were capable of. The defendants lost
their case at the state level, but immediately, the very same day they lost their case
continued to harass plaintiff into giving up her apartment. Plaintiff is suffering well over
five years hardship now from the actions of the defendants. It is ongoing and totally
without remorse for the state of devastation caused.
4. There are two out of three of Sandra Black’s children struggling with extreme
depression which later lead to addiction to harsh street dmgs, all plummeting
exponentially down to totally incapacitated since defendants’ actions. Black suffering in
America is so extreme that many blacks are one Karen away from life or death situations.
Sandra’s children were FORCED to watch their mother TRY to do everything right
religiously always and through lies and injustices she was devoured, the defendants must
be utterly souless to see all the damage they caused and utterly lie at every turn, no
remorse. This sent plaintiffs children the message that as a black person doing right you
will still lose and in plaintiffs mom’s case, her grandchildren watched her too though
upright and just tragically DESTROYED. Plaintiffs children struggled to make right

> *>

10

decisions in their lives as their mother had set the example to do so. Their minds became
utterly hopeless as to how they will survive life as life in America shows it FACT that
making right decisions only gets a black person homeless, jobless, mother neglected and
abused. Sandra Black’s son as of July, 2021 faces murder charges for a death that he says
was an accident. Her daughter was successfully overcoming drug addictions for three
months when an enemy resident leader threw the daughter out for not wearing her badge.
Plaintiff begged her to stay the weekend to not relapse, but her daughter insisted that she
couldn’t give anyone ammunition against her mother again, thus she relapsed. Knowing
that plaintiff was always legal before and the defendants maliciously fabricated an
eviction lying on her for her frequent visits as she was living in the home. She could die,
the addiction is that severe.
5. Finally, the court bias and patronizing of black suffering at every mention of the
request for special consideration for the national crisis as a judge chosen to render justice
is most painful. She always starts out with a condescending speech paraphrasing...
While we do pity your situation, there’s absolutely nothing ever that this court intends to
do to consider it, not even to discuss how special consideration could help or WHY IT’S
REQUIRED. With all her orders and opinions plaintiff was made to understand that this
case will in no way be unprecedented, the national race divide will not be considered,
more devastating is that she FORCES it so by not allowing plaintiffs needs in this
proceeding to be met not only damaging plaintiff, but the entire African American race.
Plaintiffs life shows beyond significant hardship has been reported as such she qualifies for
EMBEDDED LAW. Plaintiffs catastrophic type of suffering should not be a requirement to ask
for the extra compensation, EMBEDDED LAW. It is through her catastrophic suffering that
black life suffering can BEGIN to become visible to non-blacks incapable of “the black
experience.” THE HORRIFYING CATASTROPHE OF A LIFE LIVED BY SANDRA
BLACK bringing destruction to her entire family indirectly to immeasurable proportions. The
numerous discrimination acts in jobs, loss of a family member, and her beloved home all taken
solely because she was not bom white. Requires consideration of EMBEDDED LAW.
QUESTION 2
Both the court and defendant’s attorney unduly burdens the pro se litigant for words in English
that are not lawyerly, (they term vague or burdensome) though they KNOW what plaintiff seeks
and the both know it could easily be produced without unduly burdening a pro se litigant. For
example, the court turned down plaintiffs second request for legal help because the court wanted
THREE PHONE NUMBERS to show that attorney’s had been called. Plaintiff stated that she
had called NUMBEROUS attorneys to no avail, but the court doesn’t understand that word
(NUMEROUS) “it can mean any amount” therefore plaintiff was denied. Plaintiff fears to
resubmit as the court may have a trick that something more is missing and then dismiss with

11

prejudice. Why couldn’t the court have granted the motion pending the 3 phone numbers? The
answer is either bias or misleading and the court was never going to consider helping.
The Defendant’s attorney claimed to not understand words, with court backing as a reason to
refuse discovery. See Appendix A Order and Opinion page 6 where court states that she can tell
that plaintiff seeks discovery of treatment of white tenants treated similarly to Sandra Black’s
violations, but supported defendant’s claim that it was over burdensome and unintelligible
though she understood it. There are either none or extremely few white tenants kicked out for
having company stay over too long. Reasoning is common sense.. .The many tenants who will
be evicted for failure to pay, the damage and hoarding in homes, fighting and bickering with
neighbors, the criminals all REAL money loss issues, how can a landlord survive financially
kicking out tenants for no money loss lease violations? So how is rendering the production over
burdensome? See the docket and order many such treatments by both the court and defendant’s
attorney to render PRO SE plaintiff as practically a nonexistent litigant solely due to she’s not an
attorney. The court didn’t set a hearing to help plaintiff get her production and punished plaintiff
with SANCTIONS due to the misleading the court by defense counsel and boilerplate abuse.
Please look at all of the abuse in the order.
QUESTION 3
To save the Supreme Court time, the discrimination and bias has been discussed throughout this
presentation.

QUESITON 4.
Unfortunately black suffering has been mostly invisible to the masses. It doesn’t happen to them
so it doesn’t happen. Fortunately technology has come along to help expose it to a fraction of
the degree it happens. Our children are dying from hopelessness of no way to escape destruction
due to being bom with dark skin. This has been an American way of life for centuries with no
way of escaping the suffering. The question is how will it ever STOP if we utterly refuse to
change, to do things differently. The federal court wants and is ENFORCING that everything in
her court will be as precedent conducted. She even said that precedence is LAW, which is why
the defendants MUST be allowed to lie and nothing can be done to prosecute them for lying
under oath. She is not allowed to recommend them to a prosecutor because it wouldn’t be fair to
the defendants keeping America the same is unconstitutional for black people. As the ONLY
people to suffer without a place of refuge (they cannot go back to their country), as the only
people with BOTH they history of extreme wrong doing and no land or reservation to call their
own to REFUSE a blacks only discrimination protection by FIRST allowing a hearing on all the
evidence (not done) and then if successful and qualifications exist apply EXTREME
PUNISHMENT if a jury will agree. The extreme maliciousness of the defendants MUST be
allowed to be shown. It is believed that most Americans are tired of the Karen types and will

12

grant a majority vote for EMBEEDED LAW. First the Supreme Court must agree that the
African American people are entitled to a constitutional RIGHT to this chance at a real financial
offset for black people only and a chance for corporations to be more dutiful to make sure that
blacks are not discriminated against. This is a win-win for all the nation, but the karens and
corporations who are not responsibly stopping discrimination caused by their employees.

REASON FOR GRANTING THE WRIT
The reason this writ must be granted is due to the fact that Sandra Black a pro se litigant cannot
be fully heard in a court of law. This violates her constitutional right to be heard. There is no
entity other than the Supreme Court that has jurisdiction over the Federal court to protect:
1. Sandra Black’s right to be heard even though she is not a lawyer.
2. Sandra Black’s right to be fully heard regarding the national racial divide and to stop the
rampant abuse and mockery of the judicial system by the defense in totality.
3. The right of the African American people THE MOST AFFLICTED without a place of
refuge to have a once in lifetime opportunity for their country to grant a financial relief that
benefits specifically black people and sends the message internationally that America is
accepting change to alleviate centuries of discriminatory suffering that has been accepted and
allowed far too long.
4. The defendants are EXTREMELY guilty of intentionally and maliciously causing Sandra
Black and other people of color to lose their home creating entire families great hardship.
Defendant Naomi Friedrichsen admitted under oath in her deposition on page 75 line 23, she
admits keeping a white tenant who feeds the unwanted cat population (KEEPING PESTS THAT
EFFECT THE ENTIRE COMPLEX) and she was not violated out of her home for destruction to
the entire property. Naomi says that the white lady was there before the Hispanic lady Monica
Conreas and SHE KNEW that the white lady was the one who was feeding the cats, not Monica.
This is an admission to allowing a serious damage being done to the property the lady is allowed
to do it for years definitely up until after plaintiff left. This proves discrimination keeping a white
tenant known to damage the entire property while removing a black tenant Sandra Black for the
fabricated reason of having people in her apartment, this is ONE APARTMENT issue
complained to happen of two months, while the entire complex problem of feeding pests was
allowed to happen for year and she was still there as of the deposition. People of color ere
removed for petty violations or fabricated violations and nobody will investigate this great
sufferings that people of color suffer at this complex.
5. Finally so that the Supreme Court can grant Sandra Black, pro se litigant her do process
instruct the court on how better to handle a pro se litigant by not empowering opposing counsel

13

to act in bad faith or unjustly and to diligently to the fullest extent of the law fulfill duties to try
all within their power to grant the request of pro se litigants without unfairly harming opposing
counsel.

WHAT’S NEEDED FROM THE SUPREME COURT

s 'fidieS- Soujcf'

1. To issue a press release about this special interest case introducing Embedded Law relief as
the first time ever remedy request placed before a jury to help discourage discrimination and get
more relief in to the hands of those who suffer the most historically and currently in general,
allowing both sides equal time to tell the public their side.
A. Plaintiff may get a pro-bono lawyer
B. African Americans for the very first time can see financial relief special to their cause and an
incentive to discourage discrimination against them, totally unprecedented in America and
what’s needed to heal the country.
C. The public is ENTITLED to know that there is a suggested remedy special for discrimination
against blacks as the only minority without a land to escape harsh mistreatment.
D. Even if plaintiff is not successful at receiving Embedded Law relief others may be.
Therefore they can know of the concept and push for a recourse of unprecedented change given
by a jury of their peers to show the nation can make a real change this case must be made
nationally available to the people in recognition and GUINUINE concern for the national racial
divide.
2. Assistance getting an attorney or legal assistance. There were numerous attorneys called, but
here are the three names and phone numbers to satisfy the Federal Court’s request, i. Walter
Madison 330-294-0716 said he was too busy and referred a number that was called at that time,
ii. Sharon (713) 542-7491 she also said that she called several of her people on my behalf and
they were all too busy or not interested. iii.Michelle Scott 1 (317)371-3667 she’s a employment
discrimination attorney that I know and have spoken with in the past she’s not interested in
housing discrimination. This was the problem with all the numbers called the attorneys handled
employment discrimination, but was not interested in housing. I also called Ben Crump and
Johnny Cochran’s Firm, both declined. I called all attorneys under discrimination law to no avail
and many others as friends would recommend.
3. Assistance getting the attention of experts who are too big they do not return phone calls or
answer emails from regular people. A pro se individual cannot get a call back from a genuine
expert as a court or an attorney could.

14

4. Assistance getting Kemuel’s work history to prove he lived in Bloomington working on the
clock. Assistance getting Jacee’s school records to prove she went to school in a totally different
city. An Attorney may help with 3 and 4.
5. To recommend plaintiff, Sandra Black and defendants, Naomi Friedrichsen and Erika,
Holliday for investigation for perjury and if found guilty to be prosecuted to the highest extent of
the law so that the truth will come out once and for all. Defendants both swore under oath that
Jacee was seen in my home prior to April 19th 2017 compare that Sandra Black swears THE
FIRST AND ONLY DAY, absolutely not one day prior, NONE was^April 19, 2017. Someone is
a blatant liar and perjuring themselves. Plaintiff has evidence that suggest that Jacee WAS
FORCED into plaintiffs home on April 19, 2017. As a result the landlords saw a white girl and
a white baby enter plaintiffs home freely JUST THAT ONE DAY and lost their minds and
issued a 30 day-vacate immediately.

&

Jacee lived with her mom and grandmother and went to school in a totally different town from
plaintiff. Jacee then 15, but now 19 and divorced can testify that she wasn’t seen at all days,
weeks, to months before as defendant’s intentionally falsely claim. Barbara Daniel grandmother
and Julie are witnesses that Jacee lived with them.
6. To instruct the court to treat a black pro-se person equally to corporations, attorney, and white
persons. To judicially diligently work hard to consider plaintiffs motions and to do all within
the court’s power to assure that the RIGHT decisions are made for BOTH parties and not only
one parties interest is served. A-l-So ~f~o &liArMT CjEEWVtY
fls

A-

These and any other relief the Supreme Court can intervene from its review of this case to help
fulfill plaintiffs constitutional right to be heard in a court of law and to be made whole.

1

OXV \ "vYo

U'VvwWs

-{'r€eclv*vev\4' oQ
""
I
C CONCLUSION
<3/7 SJCiTaofa'ina^y
i should be granted.
The petition for

Respectfully submitted,

Date:

S'*

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

V nk^wP|
PSe

STATUTES AND RULES

Las^ Inarm k

4'k-S- FexAQJC e\.V

Couo-ck

,4;, ^

?U/vV49

te>

T’V^ rt4:^S- *ibcM«e-T)
G’R.ft-fJre^ £,i/er
OTHER
I s

I rN

ever

+L "^3-

5-

^/oQ^O i N^Csi ,

4y^^|v^A>

'pefe.nS?.

j)e£enS-€L

'i

IN THE
SUPREME COURT OF THE UNITED STATES

/In

\*Jrf

,

^an/

PETITION FOR

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
"appears at Appendix
The opinion orthe United States court of ap
the petition and is
reported at y/vyW
_____ ,; or,
or publicatiorTbuto^ not yet reported;; or,
] has been designa,
[ ] is unpublished^
The opinion of the United States district court appears at Appendix
the petition and is
[j/Treported at V'/vVVV. p<a.ceiTtVloryi~J~o<~, r.ov^\ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

A
<^l$e

[yf For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Gz'Ta.nrf£ u.per i o<~
court
appeals at Appendix jfis* to the petition and is
; or,
\y\ reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

iAc(u«Uoi

3-1
i

JURISDICTION

[ ] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
MO T—A.440W&D — Ut4.\
b>OT Cc5MCC^D63>
was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. _A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:

IH.l *°>7
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix..13___
< .
, i * <i
Covh7 efl-C~L-fxirv\
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix

c_

[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

p/h~e.nt\ rw**vT~

Civil I R'.gU-S Ac-4

A-We.

Ae«/

I8£*C

Q UAfc&hlTEES
Vu4

cAV

k

C'+» Teir\S

+U RlC-J+f

ocV/

EfduRL

4-o

l£louc.\c$

Lo\aJ •

wVoV^ ^

^rc.

uuol

'fre.cd-eA

+-o

M*Y ota/hS RflCt.
Mog-e THftM_________________
.

«r\

pcnte' °F &OVeR£t &,NTy
Cuvv\e

I We,

4o

Not

<pECiA-C. Co ms i Dc&fr/o/i/

*3 :‘ S

\3\oucWs

^0,<Vl'l L

$ot

A' okvS

^

£>ee^

£t

c*vA
\

Ae^rkeA
(ife^vn
\a/^
I i»ve.

CNjc_ce5S

-k*^ -klv-c^

due

(X I» 4e 0*4

^Urt! s W »v\e K\

d-o
CfUC

|n£l»c4ec|

tv[

C_Q^Y\

d<vrW

l

*XV\

J

wnusua [

5ocer/x^

•»

STATEMENT OF THE CASE

I

ee.
S

V*

7- iz.

r

REASONS FOR GRANTING THE PETITION

t

r
I

t -L.-lH

\

i

V

/

CONCLUSION

an eK-f-raonJ; wcjl
The petition for

;+

Vjri

should be granted.

Respectfully submitted,

Date:

2L.7 2-Q-U

